IN THE
SUPREME COURT OF THE UNITED
STATES
•
A.S. a 9-year old child with Autism Spectrum
Disorder (ASD) entitled to Special Education and
Related services per IDEA represented by his
parents R.S. Pro se and E.S. Pro se
Plaintiffs-Petitioners

Board of Education Shenendehowa Central
School District,
Interim Commissioner Betty Rosa, of The
University of the State of New York
Defendants-Respondents

•
On Writ of Certiorari
To the U.S. Court of Appeals for the
Circuit

2nd

•
PETITION FOR A WRIT OF CERTIORARI
Appeal from the Decision, Order and Judgment of
The United States Court of Appeals of the Second
Circuit by Judges Pierre N. Leval, Raymond J.
Lohier, Jr. and Michael H. Park to dismiss for lack
of jurisdiction the Appeal from the MemorandumDecision and Order and Judgment of The United

FILED
OCT 0 5 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

ii

States District Court for the Northern District of
New York by Judge Lawrence E. Khan entered
February 20, 2019 and Motion to Reopen Granted
on March 16, 2020 and postmarked on March 16,
2020 where FRAP suggests 14-day timeline begins
on March 19, 2020 in Action No. 20-1153.
QUESTIONS PRESENTED
Whether an appellate court may sue sponte
dismiss an appeal which has been filed within
the time limitations stated in the Federal Rules
of Appellate Procedure FRAP Rule 26(c) that
adds 3 days for service by mail to file an appeal
for which the motion has been granted to
reopen the time to file an appeal under rule
4(a)(6) of FRAP?
Whether non-attorney pro se parents can
reasonably have been expected to know of
unwritten rules that lawyers take for granted
that FRAP Rule 26(c) does not apply to mailed
motions that are granted to reopen the time to
file an appeal under rule 4(a)(6) of FRAP when
that is impossible to determine when reading
the Federal Rules of Appellate Procedure?
Whether the interpretation of FRAP is
intended to be based on the stand-alone _
document and whether supplementary rules
are required for its interpretation where such
supplementary rules are referenced within
FRAP to the particular application of FRAP
rule 26(c) on FRAP rule 4(a)(6)?

iii

Is Intensive Behavioral Intervention or its
equivalent intensive Applied Behavior
Analysis (ABA) required for a specific period of
time for a child with autism in order for the IEP
to be "reasonably calculated" for the child to
make progress in light of their circumstance?
In light of question 4, is there any other way to
raise measures by "technically sound
instruments that may assess the relative
contribution of cognitive and behavioral
factors, in addition to physical or
developmental factors." (20 U.S.C. § 1414
(b)(2)(C); 8 N.Y.C.R.R. § 200.6(6)(ii)(x)) such as
IQ and Vineland Adaptive Behavior Scales
(VABS) such that "further education,
employment and independent living' 20 U.S.C.
§ 1400(d)(1)(A) is a reasonable expectation for
at least half of all school aged children with
autism?
Can a court defer to the opinion of a lower
judicial body when there is an alleged bias of
that lower judicial body?
Are the rules, regulations and laws of 8
N.Y.C.R.R. §200 et seq. and also The IDEA 20
U.S.C. §§ 1400-1482 especially as it relates to
persons with autism written so that they are
unconstitutionally vague and such that they
cause confusion and variation in opinion in the
courts, absent expensive expert testimony, and

iv

unlawfully empower school personnel, schools,
school districts other Local Education Agencies
(LEAs) to broadly interpret the education law
themselves especially on such pertinent
matters of Least Restrictive Environment
(LRE) determinations and the appropriateness
of a particular educational approach such that
it permits the curtailing of the rights of
students receiving special education and their
parents and consistently results in a denial of
a FAPE, a denial of access to the students LRE
to the maximum extent appropriate and also
results in confusion amongst the appellate
courts on how to interpret the education law
and render a judgment?
8. Given the nature of the common developmental
delays found in nearly all autism spectrum
disorder (ASD) diagnoses, if a student with a
an ASD entitled to an Individualized
Education Plan (IEP) and special education
and related services should the three measures
of 1) expressive language, 2) conversational
ability (measured in the number of peer aged
exchanges that a student can consistently
demonstrate) with typically developing peers if
in their LRE and 3) a reduction in prompt
dependence be guaranteed goals on the
student's IEP since these measures are
necessary to the purpose of The Individuals
with Disabilities Education Act (The IDEA) (20
U.S.C. §§ 1400-1482) which is "to ensure that
students with disabilities have available to
them a FAPE in the LRE to the maximum

V

extent appropriate that emphasizes special
education and related services designed to
meet their unique needs and prepare them for
further education, employment, and
independent living' (20 U.S.C. §§
1400(d)(1)(A))?
9. If Question 7 is not answered in the affirmative
does 20 U.S.C. §§ 1400(d)(1)(A)) have any
meaning for a child with autism?
TABLE OF CONTENTS
QUESTIONS PRESENTED
TABLE OF AUTHORITIES
Cases
Statutes, Rules and Regulations
Legislative Materials
Publications

ii - v

x - xi
xi — xii
xiii
xiii - xiv

OPINIONS BELOW

1

JURISDICTIONAL STATEMENT

1

STATUATORY BACKGROUND AND
STATEMENT OF THE CASE

1— 4

RELEVANT STATUATORY
PROVISIONS

4-5

LEGAL BACKGROUND

5-9

vi
FACTUAL BACKGROUND
PROCEEDINGS BELOW
REASONS TO GRANT CERTIORARI

9 - 13
13 - 15
15

THE COURTS SPAN A BROAD
SPECTRUM ON WHETHER AND THE
DEGREE TO WHICH APPLIED BEHAVIOR
ANALYSIS CONSTITUES THE ONLY
EDUCATIONAL PROGRAM THAT IS
"REASONABLY CALCULATED" TO
CONFER EDUCATIONAL BENEFIT FOR
PERSONS WITH AUTISM
15
THE 2ND CIRCUIT STANDS ALONE AT
THE MOST SEVERE END OF THE
SPECTRUM IN ITS TREATMENT OF
APPLIED BEHAVIOR ANALYSIS
METHODOLOGY
20
THE 5TH, 9TH AND 11TH CIRCUITS...20
THE 3RD, 4TH, 6TH AND 7TH CIRCUITS
ARE THE MOST EMBRACING OF THE
INTENSIVE ABA METHODOLOGY
24
THE 1ST, 8TH AND 10TH CIRCUITS AS
WELL AS THE D.C. CIRCUIT
27THERE ARE ESSENTAIL ELEMENTS TO
AN INTENSIVE ABA PROGRAM THAT
MUST BE INCLUDED AT A MINIMUM

vii

FREQUENCY TO ENSURE "FURTHER
EDUCATION, EMPLOYMENT AND
INDEPENDENT LIVING"
29
THERE IS AN ARMY OF
PROFESSIONALS
THAT
ARE
SPECIFICALLY TRAINED TO PROVIDE
ABA INTERVENTION AND THEIR
NUMBERS ARE SUFFICIENTLY LARGE
SUCH THAT VIRTUALLY NO PERSON
WITH AUTISM WOULD BE LEFT BEHIND
IN PUBLIC SHCOOLS
35
THE FEDERAL RULES OF
APPELLATE PROCEDURE (FRAP) LEAD
PRO SE PARENTS OF-A.S. OR OTHER PRO
SE REPRESENTATIVE TO BELIEVE THAT
REOPENING THE TIME TO FILE AN
APPEAL FRAP RULE 4(a)(6) IS EXTENDED
BY THREE DAYS PER FRAP RULE 26(c) IF
THAT ORDERED GRANTING THE MOTION
IS SENT VIA USPS MAIL
37
CONCLUSION

38

APPENDICIES
Appendix 1, Lee Jones, N., CRS Reports of Congress
to Analyze, Intent The Individuals with Disabilities
Education Act: Congressional Intent (Dated: May 19,
1995)

viii

Appendix 2, Grant to Reopen the Time to File an
Appeal U.S. District Court N.D.N.Y., dated March 16,
2020
Appendix 3, Notice of Appeal to the U.S. Court of
Appeals 2nd Circuit (April 2, 2020)
Appendix 4, Cohen, H., Amerine-Dickens, M., &
Smith, T. (2006). Early intensive behavioral
treatment: Replication of the UCLA model in a
community setting. Developmental and Behavioral
Pediatrics, 27, S145—S155
Appendix 5, Howard, J. S., Stanislaw, H., Green, G.,
Sparkman, C. R., & Cohen, H. G. (2014). Comparison
of behavior analytic and eclectic early interventions
for young children with autism after three years.
Research in Developmental Disabilities, 35 (12),
3326-3344
Appendix 6, New York Stated Education Department
SRO Decision 17-008, Dated April 3, 2017
Appendix 7, Howard, J. S., Sparkman, C. R., Cohen,
H. G., Green, G., & Stanislaw, H. (2005). A
comparison of intensive behavior analytic and eclectic
treatments for young children with autism. Research
in Developmental Disabilities,-26, 359-383.
Appendix 8, Koegel, R. L., Werner, G. A., Vismara, L.
A., & Koegel, L. K. (2005). The effectiveness of
contextually supported play date interactions
between children with autism and typically

ix

developing peers. Research and Practice for Persons
with Severe Disabilities, 30 (2), 93-102
Appendix 9, Lee, P. F., Thomas, R. E., & Lee, P. A.
(2015). Approach to autism spectrum disorder: Using
the new DSM-V diagnostic criteria and the Can
MEDS-FM framework. Canadian family physician
Medecin de famille canadien, 61(5), 421-424.
Appendix 10, Sallows, G. 0., & Graupner, T. D.
(2005). Intensive behavioral treatment for children
with autism: Four-year outcome and predictors.
AJMR, 110, 417-438.
Appendix 11, Lovaas, 0. I. (1987). Behavioral
treatment and normal educational and intellectual
functioning in young autistic children. Journal of
Consulting and Clinical Psychology, 55 (1), 3-9.
Appendix 12, Opinion of the U.S. District Court
N.D.N.Y., dated February 20, 2020
Appendix 13, 20-1153 Order from the U.S. Court of
Appeals 2nd Circuit sue sponte dismissal Dated May
8, 2020
Appendix 14, Second Amended Complaint to U.S.
District Court N.D.N.Y. Dated July 7, 2017.
Appendix 15, IHO Decision Case Number 98880,
Dated December 30, 2016

x

Appendix 16, Federal Rules of Appellate Procedure
Rules 4(a)(6) and 26(c)
Appendix 17, McEachin, J.J., Smith, T., Lovaas, O.I.
(1993) Long-term outcome for children with autism
who received early intensive behavioral treatment.
AJMR, 97, 4, 359 — 372.
Appendix 18, Letter for U.S. District Court Regarding
Case 1:17 CV-501-LEK/CFH Dated October 20, 2020
Appendix 19, Reply to U.S. District Court October 27,
2020 with record from filing (dated October 15, 2020)
with Supreme Court of the United States
TABLE OF AUTHORITIES
CASES
(Application of a Student with a Disability, NYSED
SRO Decision No. 17-008)
1, 13, 20
A.M. v. New York City Dep't of Educ., 845 F.3d 523,
541-45 (2d Cir. 2017)..35, 49, 50
14, 20
Amanda J. ex rel. Annette J. v. Clark County School
Dist. 267 F.3d 877 (9th Cir. 2001)
30
Bd. of Educ. v. Rowley, 458 U.S. 176 (1982)

1 - 37

Deal v. Hamilton County Board of Educ., 392 F.3d 840
(6th Cir. 2004)
26
T.R. v. Kingwood Twp. Bd. of Educ., 205 F.3d 572, 577
(3d Cir. 2000)
26 - 27
L.G. ex rel. E.G. v. Fair Lawn Bd. of Educ. 486 Fed.
Appx. 967 (3rd Cir. 2012)
24

xi
eL.B. and J.B. on behalf of K.B. v. Nebo Sch. Dist., 379
F.3d 966 (10th Cir. 2004)
9
Madison Board of Education v. S. V. 2020 WL
5055149 (U.S. NJ 2020)
24
R.E.B. v. State of Hawaii Department of Education
870 F.3d 1025 (9d Cir. 2017)
20 - 21
R.E.B. v. State of Hawaii Department of Education
21 - 22
55770 Fed. Appx. 796 (9d Cir. 2019)
Renee J. v. Houston Independent School District 333
F.Supp.3d 674 (S.D TX )
23
R.S. v. Bd. of Educ. Shenendehowa Cent. Sch. Dist.,
1:17-CV-0501 (LEK/ CFH) (N.D.N.Y. Feb. 20,
2019)
1, 14 - 15
Sumter County School Dist. 17 v. Heffernan ex rel. TH
642 F.3d 478 (4th Cir. 2011)
25 - 26
T.H. v. Board of Education of Palatine, 55 F.Supp.2d
830 (N.D. Ill. 1999)...
25
Winkelman v. Parma City School District, 127 S. Ct.
1994 (2007)
2
Wittenberg v. Winston-Salem / Forsyth County Board
of Education, 2008 WL 11189389 (M.D.N.C.
2008)
26
Z.F. v. South Harrison Community School Corp. 2005
WL 2373729 (S.D. IA. 2005)
25
STATUTES, RULES AND REGULATIONS
FOURTEENTH AMENDMENT SECTION II
2
"Void for Vagueness" Doctrine of the U.S.
Constitution
9, 10, 19, 23, 28

xii

IDEA

1— 37

Daubert Standard

6-7

Education of the Handicapped Act Amendments of
1990, Pub. L. No. 101-476, 104 Stat. 1103 (1990) .5
Individuals with Disabilities Education Act
Amendments of 1997, Pub. L. No. 105-17, 111 Stat.
37 (1997)
5
Individuals with Disabilities Education Act
Amendments of Pub. L. No. 108-446, 118 Stat. 2647
(2004)
5
20 U.S.C. §§ 1400-1482 et seq

1 - 37

20 U.S.C. § 1400(c)(1)

2

20 U.S.C. § 1400(c)(1) (2000 & Supp. IV 2004)

2

20 U.S.C. § 1400(d)(1)(A)

1— 37
1 -2

20 U.S.C. § 1400(d)(1)(A-B)
20 U.S.C. § 1412(a)(5)(A)

5

20 U.S.C. § 1414(b)(2)(C)

1 - 37

20 U.S.C. § 1414(d)
20 U.S.C. § 1414(d)(1)(A)(i)(IV)
28 U.S.C. § 1254
8 N.Y.C.R.R. § 200 et seq.
8 N.Y.C.R.R. § 200.4(d)(2)(v)(b)
8 N.Y.C.R.R. § 200.6(6)(ii)(x)

5
f)7

4 - 5, 8
1
1 - 37
4-5
1— 37

Fed. R. App. P. 4(a)(6)

5, 15, 37

Fed. R. App. P. 26(c)

5, 15, 37

LEGISLATIVE MATERIALS
S. Rep. No. 94-168 (1975), as reprinted in 1975
3
U.S. C . C .A.N. 1425
Cong. Rec. 19492 (1975)

3

PUBLICATIONS
Cohen, H., Amerine-Dickens, M., & Smith, T. (2006).
Early intensive behavioral treatment: Replication
of the UCLA model in a community setting.
Developmental and Behavioral Pediatrics, 27,
S145—S155
18, 32, 35
Howard, J. S., Stanislaw, H., Green, G., Sparkman, C.
R., & Cohen, H. G. (2014). Comparison of
behavior analytic and eclectic early interventions
for young children with autism after three years.
Research in Developmental Disabilities, 35 (12),
3326 - 3344
18 - 19, 33
Howard, J. S., Sparkman, C. R., Cohen, H G., Green,
G., & Stanislaw, H. (2005). A comparison of
intensive behavior analytic and eclectic
treatments for young children with autism.
Research in Developmental Disabilities, 26, 359383
32 - 33
Koegel, R. L., Werner, G. A., Vismara, L. A., & Koegel,
L. K. (2005). The effectiveness of contextually
supported play date interactions between
children with autism and typically developing
peers. Research and Practice for Persons with
Severe
Disabilities,
30,
93102
34
Lee, P. F., Thomas, R. E., & Lee, P. A. (2015).
Approach to autism spectrum disorder: Using the

xiv

new DSM-V diagnostic criteria and the Can
MEDS-FM framework. Canadian family
physician Medecin de famille canadien, 61(5),
421-424
30
Lovaas, 0. I. (1987). Behavioral treatment and
normal educational and intellectual functioning
in young autistic children. Journal of Consulting
and Clinical Psychology, 55(1),
39
7, 16, 17 — 18, 32
McEachin, J.J., Smith, T., Lovaas, O.I. (1993) Longterm outcome for children with autism who
received early intensive behavioral treatment.
AJMR. 97, 359 - 372
7, 16 - 17, 18
Sallows, G. 0., & Graupner, T. D. (2005). Intensive
behavioral treatment for children with autism:
Four-year outcome and predictors. AJMR, 110,
417-438
19, 33

1

OPINIONS BELOW
The sue sponte dismissal of the United States Court
of Appeals for. the 2nd Circuit is unpublished at 201153 (Pet. App. 196) The opinion of the United States
District Court for the Northern District of New York
1:17-CV-0501 (LEK/CFH) (Pet. App. 168). is
available at 2019 WL 719833. The opinion of the New
York Office of State Review is published NYSRO
Decision No. 17-008 (Pet. App. 51). The Decision of
the Impartial Hearing Officer is unpublished (Pet.
App. 304).
JURISDICTIONAL STATEMENT
The panel decision of the United States Court of
Appeals for the Second Circuit by sue sponte dismissal
was entered on May 8, 2020. Petition for a Writ of
Certiorari along with the application to increase the
word limit was mailed in accordance with 28 U.S.C. §
1254 on October 5, 2020. The application to increase
word limit was denied and pursuant to Rule 14.5 the
corrected Petition due by December 14, 2020.
STATUATORY BACKGROUND AND
STATEMENT OF THE CASE
The purpose of The Individuals with Disabilities
Education Act (IDEA) (20 U.S.C. §§ 1400 et seq.), is
"to ensure that students with disabilities have
available to them a Free Appropriate Public
Education (FAPE) in the Least Restrictive
Environment (LRE) to the maximum extent
appropriate that emphasizes special
education and related services designed to

2

meet their unique needs and prepare them for
further education, employment, and
independent living"
(20 U.S.C. §1400(d)(1)(A). Parents have independent
and enforceable rights under the IDEA. "our national
policy of ensuring equality of opportunity, full
participation, independent living, and economic selfsufficiency for individuals with disabilities." Justice
Anthony M. Kennedy, U.S. Supreme Court (2007)
Winkelman v. Parma City Sch. Dist., 127 S. Ct. 1994,
2003 (2007) (quoting 20 U.S.C. § 1400(c)(1) (2000 &
Supp. IV 2004)). When Congress drafted the IDEA
with its primary purpose of "further education,
employment and independent living" they had two
important ideas in mind first that when a child is
denied a FAPE in their LRE they are effectively
denied certain constitutional rights' of "Liberty" and
in turn "property" as it is defined in the 14th
Amendment. Additionally, denying a child access to
a FAPE in the LRE reduces the likelihood of "further
education, employment and independent living" and
thus places an enormous economic strain on this
country that would have been substantially avoided
had a FAPE been provided in the LRE of the student
across all students in the country.
"The long-range implications of these
statistics are that public agencies and
taxpayers will spend billions of dollars over
the lifetimes of these individuals to maintain
1 That are effectively the right and the enablers to pursue a

quality of life.

3

such persons as dependents and in a
minimally acceptable lifestyle. With proper
education services, many would be able to
become productive citizens, contributing to
society instead of being forced to remain
burdens. Others, through such services,
would increase their independence, thus
reducing their dependence on society."
S. Rep. No. 94-168, at 9 (1975), reprinted in 1975
U.S.C.C.A.N. 1425, 1433 (quoted in Bd. Of Educ. of
Hendrick Hudson Cent. Sch. Dist. v. Rowley, 458 U.S.
176, 206, 102 S.Ct. 3034, 73 L.Ed.2d 690 (1982).
"Providing appropriate educational services now
means that many of these individuals will be able to
become a contributing part of our society, and they
will not have to depend on subsistence payments from
public funds." Rowley, 458 U.S. at 201 n. 23, 102 S.Ct.
3034 (quoting 121 Cong. Rec. 19492 (1975) (remarks
of Sen. Williams)). (see Pet. App. 1), The Individuals
with Disability Education Act: Congressional Intent,
The Library of Congress May, 1995. In a country that
spends atleast $250 - $300 Billion2 annually autism
related services across individuals of all ages the
opportunities for savings if evidence-based autism
methodology is provided in schools are atleast $100
Billion per year. Thus, there is a mutual benefit to
country and person in providing a FAPE in the LRE
that leads to "further education, employment and
independent living" where the only way to do _that is
to provide an education that increases measures by
"technically sound instruments that may assess the
2 See http://www.autism-society.org/what-is/facts-and-statistics/
(last updated 8/26/2015) citing (Buescher et al., 2014)

4

relative contribution of cognitive and behavioral
factors, in addition to physical or developmental
factors." (20 U.S.C. § 1414 (b)(2)(C); 8 N.Y.C.R.R. §
200.6(6)(ii)(x)) where the measures that are the most
relevant and reliable predictors to obtaining such an
independent lifestyle are the measures of IQ and a
comprehensive measure of adaptive behavior such as
the gold standard Vineland Adaptive Behavior Scales
(VABS).
RELEVANT STATUATORY PROVISIONS
The Individuals with Disabilities Education Act (The
IDEA) Purpose 20 U.S.C. §1400(d)(1)(A):
"to ensure that students with disabilities have
available to them a Free Appropriate Public
Education (FAPE) in the Least Restrictive
Environment (LRE) to the maximum extent
appropriate that emphasizes special
education and related services designed to
meet their unique needs and prepare them for
further education, employment, and
independent living"
Content of the IEP 20 U.S.C. § 1414(d)(1)(A)(i)(IV)
and 8 N.Y.C.R.R. § 200.4(d)(2)(v)(b)
"a statement of the special education and
related services and supplementary aids and
services, based on peer-reviewed research to
the extent practicable, to be provided to the
child, or on behalf of the child, and a
statement of the program modifications or
supports for school personnel that will be
provided for the child"

5

Federal Rules of Appellate Procedure Rules (FRAP)
Rule 4(a)(6) and 26(c) (See App 321)
LEGAL BACKGROUND
In 1972 aware that children with disabilities were not
given adequate access to an education and social
environment in public schools Congress conducted an
investigation and found that there were unacceptable
educational standards for children with disabilities.
Thus, Congress enacted the Individuals with
Disabilities with Education Act (IDEA) 20 U.S.C. §§
1400-1482 et seq., Pub. L. No. 101-476, 104 Stat. 1103
(1990). Since then, Congress has amended and
reauthorized the IDEA twice in 1997 and in 2004.
Pub. L. No. 105-17, 111 Stat. 37 (1997); Pub. L. No.
108-446, 118 Stat. 2647 (2004).
Under the IDEA children with disabilities are
entitled to a Free Appropriate Public Education
(FAPE) that entitles them to an "Individualized
Education Plan" (IEP) 20 U.S.C. § 1414(d) and
placement in the least restrictive environment (LRE)
to the "maximum extent appropriate" (20 U.S.C. §
1412(a)(5)(A)). The IDEA also entitles students to
methodology "to the extent practicable, be based on
peer-reviewed
research"
(20
U. S. C.
§
1414(d)(1)(A)(i)(IV) and 8 N.Y.C.R.R. §200 et seq.3, §
200.4(d)(2)(v)(b)). The IEP lays out the students LRE
placement, their level and types of services, their
progress in the prior year and their goals in the
upcoming year, the IEP even lays out how the services
3 http://www.p12.nysed.govispecialed/lawsregs/documents/regul
ations-part-200-201-oct-2016.pdf

6

are delivered or specifies the methodology, if there is
any used. Because schools use "technically sound
instruments" (20 U.S.C. § 1414 (b)(2)(C); 8 N.Y.C.R.R.
§ 200.6(6)(ii)(x)) measuring IQ and VABS to make
major decisions about the educational placement and
planning of a student it only logically follows if and
only if the peer-reviewed research that the student's
methodology is based on is proven to be highly
effective in raising these two measures if such a
methodology is available. It turns out there is such a
methodology that can substantially raise the IQ and
VABS of students with autism known as intensive
Applied Behavior Analysis (ABA) that may be
referred to as Intensive Behavioral Intervention (IBI)
and it is the only single educational methodology for
persons with autism that can meet the rigorous
requirements of the Daubert Standard 4 which is
defined as follows:
"Standard used by a trial judge to make a
preliminary assessment of whether an
expert's scientific testimony is based on
reasoning or methodology that is scientifically
valid and can properly be applied to the facts
at issue. Under this standard, the factors that
may be considered in determining whether
the methodology is valid are: (1) whether the
theory or technique in question can be and
has been tested; (2) whether it has been
subjected to peer review and publication; (3)
its known or potential error rate; (4) the

4

https://www.law.cornell.edu/wex/daubert__standard

7

existence and maintenance of standards
controlling its operation; and (5) whether it
has attracted widespread acceptance within a
relevant scientific community."
Further in the long-term intensive ABA will result in
a net savings for school districts and for this nation
because a far greater number of individuals with
autism will achieve independence during elementary
thereby eliminating costs associated with providing
extensive services for some of elementary school, most
of middle high school and during the rest of the
lifetime of the individual. Any other methodology
while having potentially lower costs in the first 3
years of preschool and elementary education will
result in a 2-fold increase in costs for the remainder
of that persons school-aged period and a substantial
increase in costs for the remainder of the individuals
life in comparison to intensive ABA which would have
higher costs during the first 3 years and such costs
would precipitously drop in subsequent 2-3 years
followed by complete elimination of services for 45%
of children with autism when the entire spectrum is
considered (see e.g. Lovaas, 0. I., 1987, Journal of
Consulting and Clinical Psychology, 55:3-9;
McEachin, J.J., Smith, T., Lovaas, 0.I., 1993, AJMR.
97:359-372.). Of the remaining 55% about 10 - 15%
will have been deemed to not benefit from ABA and
about 40% will be deemed to substantially benefit but
need ongoing special education support. Overall with
intensive ABA 50+% of persons with autism across
the spectrum can achieve all three of "further
education, employment and independent living' 20
U.S.C. § 1400(d)(1)(A)). However, without intensive

8

ABA that percentage will fall within 10-25%
depending on the collective effectiveness of the
teachers in the school district. There is an army of
specialists that are capable of implementing intensive
ABA programs and training staff that implement
such programs while overseeing the day to day
progress of such programs and they are known as
Board Certified Behavior Analysts (BCBAs).
Additionally, the confusion of interpreting the terms
"reasonably calculated" Rowley, 458 U.S. 176, 206,
102 S. Ct. 3034, 73 L.Ed.2d 690 (1982) LRE "to the
maximum extent appropriate" 20 U.S.C. §§
1400(d)(1)(A) and "to the extent practicable be based
on peer reviewed research" (20 U.S.C. §
1414(d)(1)(A)(i)(IV)) has led courts to interpret the
cases of students with autism that have similar ages
and practically identical identifiable characteristics
as a result of their autism to have widely differing
judgements and opinions at the U.S. Court of Appeals
and District Court levels. What is necessary is a
unified interpretation of the IDEA as it relates to
persons with autism. In other words, a student with
autism should have a right to an intensive ABA
methodology for up to three years followed by a
transitional ABA program (e.g. for 2 hours a day) for
up to 2 years, as a matter of law and right because
intensive ABA methodology is the only such
methodology that is proven to raise IQ and VABS to
levels that can carry out the primary purpose of the
IDEA 20 U.S.C. § 1400(d)(1)(A) by increasing those
measures that parallel one's ability to achieve
"further education, employment, and independent
living" 20 U.S.C. § 1400(d)(1)(A). Those measures

9

are only IQ and VABS. In other words, district and
appellate courts misinterpreting these fundamental
elements of the special education law is a clear sign
that the law is effectively,"void for vagueness" when
applied to students with autism.
FACTUAL BACKGROUND
A.S. was diagnosed with autism at 31/2 years old.
Exposure to other children with autism or other
children with similar disorders causes A.S. to have a
more noticeable impairment. (see L.B. and J.B. on
behalf of K.B. v. Nebo Sch. Dist., 379 F.3d 966 (10th
Cir. 2004)). A.S. has responded very well to ABA
when applied comprehensively and intensively. ABA
has helped A.S. improve academics, social skills,
language and increases A.S. participation in virtually
all settings of society.
Attendance at the ABA Preschool
At the age 3 years and 10 months A.S. was enrolled in
an ABA preschool in a highly restrictive LRE without
first having a trial period in the LRE that was less
restrictive. A.S. previously was enrolled in a full-time
daycare for typically developing children prior to the
move to the ABA preschool. 5.5 months later A.S. was
moved fulltime to an integrated placement where he
saw a large improvement in his language, disposition
and was overall much happier and more participative.
These behaviors were key ingredients for learning,
communication and participation in society.

10

The Kindergarten Placement in Eclectic
Special Education
The next fall A.S. was placed in a Kindergarten
Program that was based on a methodology known as
eclectic intervention or a collection of practices and
methodologies that may be taken from a variety of
different sources because the permissively vague
language of the IDEA permitted it as the guidance
was limited to "to the extent practicable be based on
peer reviewed research" 6 20 U.S.C. §
141(d)(1)(A)(i)(IV). Essentially, the fall 2015
Kindergarten Program was an eclectic special
education program that had no evidence to be
effective for student with autism and was more
restrictive than the LRE of A.S. most prior preschool
placement. They caused A.S. to have a significant
regression and a due process complaint resulted in a
settlement with A.S. placement back at the ABA
preschool by that December.

Researchers can publish "peer reviewed" interventions that are
not evidence-based that may appear to be effective where upon
close inspection such interventions actually do not build
independence and make the intervention recipient with autism
highly dependent on cues and prompts from the staff providing
the intervention where no data on independence is provided or
independence data demonstrated. These programs are often
easy to implement and selected by special education programs
and are of little to no value to the student with autism.
Evidence-based research on the other hand requires that the
more significant measures of efficacy are used to demonstrate a
significant outcome on a universal measure where in autism
research for primary programs those measure are related to IQ
and VABS and the intervention recipient's specific ability to
independently demonstrate the skill of interest without a nearby
adult assisting.
6

11

Return to the ABA Preschool
A.S. parents received formal ABA training for 8
sessions over 8 weeks from the preschool. For the
following school year The Shenendehowa Central
School District (Shen) wanted to place A.S. back in the
same program that caused him to substantially
regress and thus a second due process complaint was
filed by parents disputing the placement for the
following school year. This due process disputed the
LRE, goals and the eclectic programming arguing
that A.S. required intensive ABA in his LRE. The
disputed goals were at A.S.'s present levels which
parents viewed as a way for Shen to guarantee the
achievement of goals on the IEP to prove the efficacy
of their restrictive program while shunning program
evaluation based on "technically sound instruments"
(20 U.S.C. § 1414(b)(2)(C); 8 N.Y.C.R.R. §
200.6(6)(ii)(x)) measuring IQ and VABS. Thus, the
permissively d language of IDEA has enabled schools
to provide special education programming that does
not have to demonstrate that it is helping students
with autism achieve "further education, employment
and independent living" 20 U.S.C. § 1400(d)(1)(A)
since the very "technically sound instruments"
measuring IQ and VABS triennially are not part of
the program evaluation. With no clear guidance from
the IHO on pendency A.S. parents provided A.S. a
fulltime home-based intensive ABA program
supplemented with 2-3 days a week in an afterschool
program for 2-3 hours each day at a daycare for
typically developing peers to provide social and
language generalization opportunities for A.S. A.S.
made significant gains and in 5 months by January
A.S. had achieved all the goals parents requested on

12

the IEP that was part of the due process complaint.
By late February A.S. was enrolled in kindergarten at
a private school for typically developing children. A.S.
made very good progress at the private school where
an evaluation by a Shen psychologist 4 months later
resulted in a placement in a co-taught 7 pt grade
classroom at his current elementary school where he
made good progress and kept up with the curriculum.
By second grade in the co-taught placement A.S.
made progress but one or both of the teachers relied
on excessive prompting that caused A.S. to become
prompt dependent. Several notes were sent home
that A.S. was prompted over and over again for some
assignments. During this 2nd grade placement the
newly appointed Committee for Elementary Special
Education (CSE) Chairperson had begun pushing for
a placement in a more restrictive placement that
resulted in a due process complaint that was
subsequently settled. A.S. continued with his cotaught placement for the third grade and presently in
the fourth grade.

7 A co-taught classroom is co-taught by a general education
teacher, a special education teacher will support two separate
co-taught classrooms at 50% effort per class and an aide will
support two separate co-taught classrooms at 50% effort per
class. Thus, a co-taught class at any given time will have the
general education teacher and generally either a special
education or aide to provide additional support. A co-taught
class has a typical make-up of about 5 students that qualify for
special education programming and about 15 — 18 students with
no special education needs. The 5 students that qualify for
special education programming will typically include no more
than one student with autism.

13

Summer Programming 2018, 2019 and 2020
A.S. has attended full time camp for typically
developing students for the past three summers
attending for 8 weeks averaging 4.5 days a week for
5.5 hours a day for the last two years.
PROCEEDINGS BELOW
Due Process Complaint
A.S. parents filed a due process complaint in August
5, 2016 seeking intensive ABA methodology in A.S.
correct LRE disputing substandard goals, an
inappropriate LRE and eclectic special education
programming. Following 5 days of hearings the
decision by the II-10 George Khandhalikis that
December was in total support of the district
dismissing the parent's position in its entirety.
Additionally, none of the exhibits relating to intensive
ABA methodology were admitted into evidence.
Parents felt the II-10 was unfairly biased.
Appeal to the State Review Officer (SRO)
In an appeal to the SRO Justyne Bates parents
experienced a similar bias in the SRO decision on
April 3, 2017. The SRO not only inappropriately
found the goals set at the conclusion of the 2016-2017
school year—that A.S. had already achieved by the
conclusion of the 2015-2016 school year as
appropriate—but also found the goals appropriate
based on present levels. Additionally, the SRO found
that according to legal precedent A.S. was not entitled
to methodology (See NYSED SRO Decision 17-008 pp.
36) excepting when it was shown that absent evidence
to the contrary a program that does not recommend

14

the use of that methodology will not be reasonably
calculated to enable the student to receive
educational benefits. A.M. v. New York City Dep't of
Educ., 845 F.3d 523, 541-45 (2d Cir. 2017). The SRO
ignored parent testimony the accepted teacher
testimony. Further, the SRO further biased this case
by siding with the IHO to block the use of exhibits
related to IBI and ABA methodology so that it would
be more difficult to demonstrate the benefit of such a
methodology. There is universal data that shows
unambiguously that a program that does not
recommend the use of IBI or intensive ABA to a
student with autism cannot be reasonably calculated
to enable the student to receive educational benefits
and thus would be unlikely to result in "further
education, employment or independent living'.
Interestingly while the SRO finds that the school
district did not offer A.S. a FAPE in the LRE for the
2016-2017 both on procedural and substantive levels
but does not issue any order to correct these
inadequacies making these findings the equivalence
of a dismissal of the case.
Appeal to the U.S. District Court N.D.N.Y.
The appeal to the District Court was filed on May 9,
2017. The District Court's decision was reached with
unwarranted deference to the SRO and IHO and
effectively using SRO reasoning to render a decision
on February 20, 2019. (Case 1:17-CV-501 LEK/CFH
Dkt. No. 95 Appendix at 168). The District Court
effectively restated the SRO decision and used the
SRO opinion and citing the transcript only where the
SRO did to find further legal precedent to support the
SRO biased decision. This deference to the SRO may

15

have impacted the impartiality of new issues raised
in this case because deference to the SRO gave the
appearance to the Judge that the special education
law was sufficiently sound to ensure justice in the due
process of the law for persons with autism.
Reopening the Time to File and Appeal under
FRAP Rule 4(a)(6) and Adding 3 days for
service by mail FRAP Rule 26(c)
Because E.S. pro se was not properly notified of the
court's dismissal of the case the U.S. District Court
re-opened the time to file an appeal. The decision was
postmarked on 3/16/2020 and mailed to E.S. pro se
(See Appendix at 12). FRAP rule 26(c) that adds 3
days for service by mail to file an appeal for which the
motion has been granted to reopen the time to file an
appeal under rule 4(a)(6) of FRAP allows 14 days from
the date of the decision. It was construed by
petitioners that the due date for the appeal was due
14 days after 3/19/2020 or 4/2/2020
Sue Sponte Dismissal by the U.S. Court of
Appeals for the 2nd Circuit
Petitioners filed the appeal online and mailed the
appeal with payment to the U.S. District Court on
4/2/20 as parents drove there at about 3:00pm on
4/2/20 learning for the first time that the court closed
early at 2:00pm daily due to the COVID-19 pandemic.
On May 8, 2020 the U.S. Court of Appeals for the 2nd
Circuit sue sponte dismissed the case.
REASONS TO GRANT CERTIORARI
THE COURTS SPAN A BROAD SPECTRUM ON

16

WHETHER AND THE DEGREE TO WHICH
APPLIED BEHAVIOR ANALYSIS
CONSTITUES THE ONLY EDUCATIONAL
PROGRAM THAT IS REASONABLY
CALCULATED TO CONFER EDUCATIONAL
BENEFIT FOR PERSONS WITH AUTISM.
Intensive behavioral intervention (IBI) or intensive
ABA is the only methodology "reasonably calculated"
to increase "technically sound" (20 U.S.C. § 1414
(b)(2)(c); 8 N.Y.C.R.R. § 200.6(6)(ii)(x)) measures of IQ
and also adaptive behavior so that "further education,
employment and independent living" is a reasonably
calculated outcome for atleast 50% of persons with
autism. Students with autism should have a right to
intensive ABA or IBI methodology for 3 years and up
to 2 - 3 additional years of part time ABA based
support in the student's LRE.
"After a very intensive behavioral
intervention, an experimental group of 19
preschool-age children with autism achieved
less restrictive school placements and Higher
IQs than did a control group of 19 similar
children by age 7 (Lovaas, 1987). The present
study followed-up this finding by assessing
subjects at a mean age of 11.5 years. Results
showed that the experimental group
preserved its gains over the control group.
The 9 experimental subjects who had
achieved the best outcomes at age 7 received
particularly extensive evaluation indicating
that 8 of them were indistinguishable from
average children on tests of intelligence and
adaptive behavior. Thus, behavioral

17

treatment may produce long-lasting and
significant gains for many young children
with autism."
((see App. at 322) quoting McEachin, J.J., Smith, T.,
Lovaas, 0.I., 1993, AJMR. 97:359-372; for the
extensive evaluation mentioned in this report see
App. at 329.
Where there is Consensus on an Educational
Methodology Among the Courts for school aged
persons with autism that Consensus only
relates to intensive ABA as the Only Proven
Methodology.
There is a near unanimous consensus among the
courts that intensive ABA is the only proven
methodology to be "reasonably calculated" to confer
educational benefits for students that have autism.
Although, courts continue to allow educators to use
flexible methodologies that are not proven to result in
improvements based on "technically sound
instruments" (20 U.S.C. § 1414 (b)(2)(C); 8 N.Y.C.R.R.
§ 200.6(6)(ii)(x)) measuring of IQ and VABS that can
result in "further education, employment and
independent living" 20 U.S.C. § 1400(d)(1)(A)
Intensive ABA or IBI was developed originally by
Professor Ivar Lovaas who in his seminal publication
stated the following challenge regarding persons with
autism "One may assume that normal children learn
from their everyday environment Autistic children,
conversely, do not learn from similar environments"
(Lovaas, 0. I., 1987, Journal of Consulting and
Clinical Psychology, 55:3-9) The need for an intensive

18

ABA methodology stems from the fact that learning is
occurring for typically developing children during all
waking hours in all that they do and that learning is
necessary for proper development. Such learning fails
to occur for many persons with autism at a young age
before a specific set of age-level skills and abilities are
learned. It has been observed that if learning is not
occurring during all waking hours the opportunity to
regress is present and that regression during nonintervention hours can contribute to substantial
diminishment of gains made during intervention in a
low intensity ABA program of 15 - 20 hours per week.
In other words low intensity ABA programs cannot be
"reasonably calculated" to confer educational benefit
in part because as intervention intensity reduces the
time for regression increases. This is an empirical
scientific fact: (Experimental Group: Average IQ
Gain: 30, 19 participants; Control group with 10 hours
of weekly ABA intervention IQ gain: 6, 19
participants. (Lovaas, 0. I., 1987, Journal of
Consulting and Clinical Psychology, 55:3-9;
McEachin, J.J., Smith, T., Lovaas, 0.I., 1993, AJMR.
97:359-372) LOVAAS PROGRAM REPLICATION:
Average Intensive ABA IQ Gain: 25, VABS Gain: 11,
21 participants; Average control group based on local
school special education program IQ gain: 13, VABS
Gain: -3, 19 participants; 3-year study (Cohen, H.,
Amerine-Dickens, M., & Smith, T., 2006,
Developmental and Behavioral Pediatrics, 27:S145S155.) LOVAAS PROGRAM REPLICATION:
Average Experimental Group IQ gain: 29, VABS
Gain: 4, 21 participants; Average Intensive Eclectic
Intervention Group IQ Gain: 10, VABS Gain: -12, 14
participants; Average Generic Special Education

19

Programming IQ Gain: 11, VABS Gain: -4 , 13
participants; 3-year study. (Howard, J. S., Stanislaw,
et al., 2014, Research in Developmental Disabilities.
35:3326-3344). LOVAAS PROGRAM REPLICATION:
Average Experimental Group Parent Managed IQ
gain: 28, VABS Gain: 6, 10 participants; Average
Experimental Group Instructor Managed IQ gain: 22,
VABS Gain: 9.5, 13 participants; 4-year study.
(Sallows, G. 0., & Graupner, T. D., 2005, AJMR,
110:417-438).
But Courts Grapple with the Degree that
Educators Should be Able to Incorporate their
own Notions of Pedadogical Effective
Methodology. And the Circuits are Scattered
on their support for a child's right to ABA
Methodology when they have Autism with
Confusion Amongst Some Circuits on How ABA
is Made to Confer Educational Benefit.
The U.S. Court of Appeals operates on a broad
spectrum regarding whether an IEP lacking in ABA
methodology—and the degree to which it may be
lacking—can be reasonably calculated to confer
benefit to a student with autism. This broad
spectrum also speaks to the vagueness of the
education law and the appellate courts ability to
interpret it. Further, the courts are completely
scattered with regards to what constitutes an ABA
methodology that meets the substantive requirement
in light of the child's circumstance and how it provides
guidance for what the substantive requirement
should be. Although, the circumstance of the child is
irrelevant in 88% of the cases of autism. 88% of
persons with autism will see major gains in IQ (if they

20

are not at typical levels) and adaptive behavior in two
to three years of intensive ABA, where 45% will reach
the levels of their typically developing peers in that
time.
THE 2ND CIRCUIT STANDS ALONE AT THE
MOST SEVERE END OF THE SPECTRUM IN
ITS TREATMENT OF APPLIED BEHAVIOR
ANALYSIS METHODOLOGY.
The 2nd circuit heavily favors—absent any
substantive justification—methodological flexibility
for educating persons with autism (See NYSED SRO
Decision 17-008 at 36) and places a unwieldly burden
of proof to demonstrate that intensive ABA is the only
means to provide, reasonably calculated educational
benefits to students with autism. "all reports that
addressed student's needs as they related to teaching
methodology and classroom size specifically
recommended the continued need for ABA therapy
and 1:1 support in order for student to progress" A.M.
v. New York City Dep't of Educ., 845 F.3d 523, 541-45
[2d Cir. 2017].
THE 5TH, 9TH AND 11TH CIRCUITS
Courts are often misguided by the administrative
bodies and school districts on liow ABA confers
educational benefit and what the effects of a washed
down version of ABA as measured by "technically
sound instruments" (20 U.S.C. § 1414 (b)(2)(C); 8
N.Y.C.R.R. § 200.6(6)(ii)(x)) that measure of IQ and
VABS. The 5th, 9th and 11th circuits often favor ABA
to be incorporated into the IEP but not in the form
where it is proven to confer educational benefit.

21

"But here, the IEP team discussed ABA at
length and recognized that it was integral to
J.B.'s education. And ABA is widely
recognized as a superior method for teaching
children with autism" ... "When a particular
methodology plays a critical role in the
student's educational plan, it must be
specified in the IEP rather than left up to
individual teachers' discretion."
R.E.B. v. State of Hawaii Department of Education
870 F.3d 1025 [9d Cir. 2017]. But some judges hold
that educators should have the methodological
flexibility without out even citing specific proof on
how such a methodology can be effective. Rather
those Judges resort to laws and legal opinions that do
not give any deference to the substantial aspect of the
education:
"DOE was not required to specify ABA
methodology in J.B.'s IEP. While we
recognized in J.L. v. Mercer Island Sch. Dist.,
592 F.3d 938, 952 (9th Cir. 2010), that "school
districts should specify a teaching
methodology for some students" in their IEPs,
we did not provide much guidance beyond
stating that doing so is necessary for some
students. The facts of J.L., however, suggest
that DOE was not required to specify ABA
methodology in J.B.'s IEP. In J.L., "[t]he
District ... declined to name a particular
teaching methodology to be utilized by all
teachers because its experts recommended

22

several effective programs, not just a single
`right' choice." Id. at 945. After the district
court held that the school district committed
a procedural violation of the IDEA in so doing,
we reversed. Id. at 952, 954."
"We accord deference to the District's
determination and the ALJ's finding that [the
student's] teachers needed flexibility in
teaching methodologies because there was not
a single methodology that would always be
effective. We hold that the District did not
commit a procedural violation of the
Individuals with Disabilities Education Act
by not specifying teaching methodologies in
[the student's] individualized educational
programs[.]"
R.E.B. v. State of Hawaii Department of Education
55770 Fed. Appx. 796 [9d Cir. 2019] Yet the court
provides no evidence that such flexibility can
confer educational benefit. This is the repeated
theme time and time again that courts cite the need
for educators to have methodological flexibility but do
not provide support for this contention that it can
result in reasonably calculated educational benefit.
The state of Texas provides further guidance for the
education of persons with autism with a document
known as the autism supplement:
"The Texas Autism Supplement lists 11
strategies that "must be considered" and,

23

"when needed, addressed in the
[Individualized Education Plan]." 19 Tex.
Admin. Code §89.1055(e). The Autism
Supplement includes a requirement that an
ARD Committee consider "teaching strategies
based on peer reviewed, research-based
practices for students with[autism spectrum
disorder] (for example: those associated with
discrete-trial training, visual supports,
applied behavior analysis, structured
learning, augmentative communication, or
social skills training)." 19 Tex. Admin. Code §
89.1055(e)(11).The Supplement supports the
District's position that Applied Behavioral
Analysis is one example of peer-reviewed
practices, rebut not the only option."
Renee J. v. Houston Independent School District 333
F.Supp.3d 674 (S.D.TX.)
An inspection of, these programs reveal that they are
effectively eclectic ineffective interventions because
they do not require ABA nor do they specify how much
ABA will be used. There is no evidence in the
literature that such programs can increase
"technically sound" (20 U.S.C. § 1414 (b)(2)(C); 8
N.Y.C.R.R. § 200.6(6)(ii)(x)) measures of IQ and
adaptive behavior. Although, Texas does recognize
the importance of ABA but has unfortunately
miscalculated what is required in order for ABA to be
effective. As intensive ABA is not prescribed as a
right to some students and the Autism Supplement is
effectively "void for vagueness" as teachers decide to
what intensity ABA will be used as well and to what
degree other methodologies will be used. Further,

24

there is no element that has to do with fidelity of the
intervention or the requirement that professionals
trained in ABA be hired to help measure and ensure
fidelity is sufficiently high. One can thus conclude it
ultimately is based on the discretion of the teacher
rather than modeling a specific proven program.
Unfortunately, the 5th, 9th and 11th circuits do not
provide evidence that they favor programs based on
intensive ABA that can confer reasonably calculated
educational benefit.
This petition established
heretofore that these programs do not result in even
de minimus gains for the participants.
THE 3RD, 4TH, 6TH AND 7TH CIRCUITS ARE THE
MOST EMBRACING OF THE INTENSIVE ABA
METHODOLOGY.
Generally, the 3rd circuit does not see many cases
because there appears to be a reasonable level of
cooperation between school districts and parents to
provide intensive ABA services. This is clearly
evident is some of the District Court cases e.g. see
Madison Board of Education v. S. V. 2020 WL
5055149 (U.S. NJ 2020). The 3rd Circuit while
favoring the use of ABA however, failed to favor a
child having an ABA placement that includes both a
heavy dose of discrete trial training and access to the
child's LRE: A general education environment with
typically developing peers that would have afforded
the child ample opportunity to generalize skills. L.G.
ex rel. E.G. v. Fair Lawn Bd. of Educ. 486 Fed. Appx.
967 (3rd Cir. 2012).
District Courts in the 7th Circuit also favor intensive
ABA and the 7th Circuit has not really seen any cases

25

appropriate to present. For many of the cases that
reach the District Court level schools often offer
provide intensive ABA home-based services to the
student which is highly appropriate. Some of the
challenges have to do with transitions, when the
school wants the student to move over to a schoolbased program that may have elements of ABA but is
more similar to special education as usual. There is
both the question of whether the transition is too
significant of a change or if the transition is too early
by a year or more. Z.F. v. South Harrison Community
School Corp. 2005 WL 2373729 (S.D. IA. 2005) Also
see, T.H. v. Board of Educ. of Palatine Community
Consol. School Dist. 55 F.Supp.2d 830 (N.D. IL 1999)
"The 38—hour ABA/DTT program was
reasonably calculated to enable T. to receive
educational benefits. We find the district's
arguments as to the "non-variability" and lack
of "individualization" of the parents' program
to be preposterous in light of the evidence."
It is important to also highlight that there is a broad
range of circumstances and degree of debilitation of
persons with autism at the start of the ABA therapy.
However, research has shown that the starting point
is not a clear indicator of how receptive a child will be
to the ABA intervention. The 4th circuit often
embraces intensive ABA methodology. For example,
in Sumter County School Dist. 17 v. Heffernan ex rel.
TH 642 F.3d 478 (4th Cir. 2011) the 4th Circuit Court
sided with the SRO that the home-based program was
reasonably calculated to confer the student
educational benefit.

26

"The SRO concluded that the home placement
was appropriate, given that it provided proper
ABA therapy to T.H.; that T.H. had made
educational progress in the home placement;
and that the parents and the therapist made
sure T.H. had regular opportunities to
interact with other children."
Sumter 642 F.3d 478 (4th Cir. 2011); also, see
Wittenberg v. Winston—Salem/Forsyth County Board
of Education, 2008 WL 11189389 (M.D.N.C. 2008)
Although sometimes a program that attempts to
appear similar to ABA is approved by district courts
over a formalized ABA program. see A.H. v. Smith,
367 F.Supp.3d 387 (S.D. MD. 2019).
The 6th Circuit while in the 1990s not favoring ABA
in 2004 made a major change in position with regard
to ABA in Deal v. Hamilton County Board of Educ.,
392 F.3d 840 (6th Cir. 2004) where the Court Stated
the following regarding the use of intensive ABA
methodology over a more eclectic or special education
as usual approach "Indeed, *862 there is a point at
which the difference in outcomes between two
methods can be so great that provision of the lesser
program could amount to denial of a FAPE." The
differences is outcome when comparing an intensive
ABA methodology to a program that merely offers
some ABA can be an average of 30 IQ points as an
average across all students in the autism intervention
program which highlights the significant potential
across most children with autism. "Further, that
benefit "must be gauged in relation to a child's

27

potential." Kingwood, 205 F.3d at 578 (quoting
Ridgewood, 172 F.3d at 247)." Deal 392 F.3d 840 (6th
Cir. 2004). The child's potential in the case of autism
is high when given access to the correct methodology
at the correct intensity. Further, the overall costs of
programs over the school aged period is far less where
ABA will help 45% of students have a substantial
reduction in service/intervention/counseling need
after 2 — 3 years and be free of services within 5 years.
Thus, schools have effectively taken programs that
could cost the school for 18 years to a program that
while greater per year for the first 3 years is less
overall and substantially reduced in the 4th and 5th
year.
Thus, the denial in FAPE is also an
unnecessary and avoidable over expenditure of school
funds when considering the costs for the entire public
education period.
THE 1ST,

AND 10TH CIRCUITS AS WELL AS
THE D.C. CIRCUIT.
The remaining circuits the Pt, 8th and 10th Circuits as
well as the DC Circuit generally do not have a clear
direction of support of lack of it for intensive ABA
programs. But generally when considering the
appeals circuit and District Courts they generally do
not support them to any appreciable extent where
there are some exceptions. The circumstance of the
student may influence the specifics of the ABA
methodology including time spent with one-on-one
discrete trails vs. time spent socializing and time
spent learning a variety of behaviors related to both
academic, language and socializing and time spent in
the general education setting. Any true intensive
ABA program almost exclusively focuses on providing
8TH

28

one-on-one ABA intervention, facilitated social and
conversational skills play dates combined with a
placement in a general education classroom where
there is a graduated increase in the time spent in the
general education classroom and no time spent in a
setting with other disabled peers. Typically, 45% of
participants will be able to have a substantial
reduction in services by the end of the 2nd or 3rd year
of genuinely intensive ABA. Where the student will
be able to communicate with same aged peers at some
level, be able to work and play cooperatively with
peers and have some age level or close to age level
academic abilities. Although, in order to truly
overcome the language hurdle a student almost
always requires structured one-on-one play dates
with typically developing peers.
Education of persons with autism suffers from a
tradition of vagueness in the educational law. This
vagueness while well called for due to a lack of a wellestablished methodology in the 1980s is simply no
longer the case today. What is perhaps most
concerning is that educators in general are generally
not trained in college in a methodology that is proven
to raise "technically sound" 20 (U.S.C. § 1414
(b)(2)(C); 8 N.Y.C.R.R. § 200.6(6)(ii)(x)) measures of
IQ and VABS. Educators are undeniably competent
in their art but were afraid that all too often that art
does not encompass the skills specific to autism.
Autism have been unnecessarily suffering for decades
due to unproved educational methods because they
courts have held that substandard results are
acceptable and that schools may create their own
methodologies. Teachers have been accorded the

•
29

right to subject students with autism to one
experimental approach after the next using whatever
mixed method approach they wish. Even with
greatest of intentions were afraid this is not enough
to justify that a person with autism is provided with
an unproven experimental program.
No educator is being measured based on the results of
the special education students by "technically sound
instruments" (20 U.S.C. § 1414 (b)(2)(C); 8 N.Y.C.R.R.
§ 200.6(6)(ii)(x)) measuring of IQ and VABS. Rather
measurement is more often based on predetermined
goals that equate to present levels of performance in
the prior school year. Quite often student goals for a
subsequent year are not based on present levels but
are the present levels of the prior year thus they are
all but guaranteed to be achieved. Any methodology
other than IBI or intensive ABA will not yield results
that allow for proven universal increases in
"technically sound" (20 U.S.C. § 1414 (b)(2)(C); 8
N.Y.C.R.R. § 200.6(6)(ii)(x)) measures of IQ an VABS
whose increases serves the purpose of IDEA for
"further education, employment and independent
living" and will continue to cripple this country
financially since the majority of the costs for autism
occur in adulthood. Three-year assessments make it
more difficult to identify program deficiencies.
Annual assessments will give a much better sense on
program quality. Even if intensive ABA is required
by law the substantive quality of the ABA will vary
from program to program.
THERE ARE ESSENTAIL ELEMENTS TO AN
INTENSIVE ABA PROGRAM THAT MUST BE

30

INCLUDED AT A MINIMUM FREQUENCY TO
ENSURE "FURTHER EDUCATION,
EMPLOYMENT AND INDEPENDENT LIVING".
To ensure independence almost universally children
with autism require a reduction in prompt
dependence and social skills to be an integral part of
the IEP where facilitated play dates occur multiple
times each week. The defining feature of autism are
related to impairments in social and communications
skills including social reciprocity and communication
skills, especially back and forth conversational skills
and
maintaining
friendships.
(https://www.autismspeaks.org/autism-diagnosiscriteria-dsm-5 ; Also see Lee, P. F., Thomas, R. E., et
al., 2015, Canadian Family Physician, 61:421-424)
As without all of these deficits one does not have
autism. "Autism is a developmental disorder; .those
affected by autism exhibit significant deficiencies in
communication skills, social interaction, and motor
control." Amanda J. ex rel. Annette J. v. Clark County
School Dist. 267 F.3d 877 (9th Cir. 2001). If
specifications of an intensive ABA program are not
sufficiently clear there is a certain likelihood that
LEAs will continue to negotiate on elements of an
intensive ABA intervention that are so critical that
without them meeting an intensity threshold an
intensive ABA program will no longer be "reasonably
calculated" to confer educational benefit. Two critical
elements of an intensive ABA program that are
essential relate to reducing prompt dependence and
improving conversational skills.
Independent participation with typically developing
peers in the classroom and society universally

31

requires that the student be able to carry on a
conversation with peers and that the participant is
able to engage in various day to day activities without
support, especially without prompting. When an
individual is prompt dependent they may not engage
in activities and assignments that fall within their
abilities because they require external adult
reminders to engage in them. That is the stimuli that
typically developing peers rely on to take action are
not always stimuli that are normally recognized by a
child with autism. Intervention providers that are
not properly trained in using prompts and fading
those prompts away have a tendency to overly prompt
the individual and heavily rely on verbal prompts, as
this is a natural human tendency that tends to work
with typical persons and persons with some nonautism related disabilities but works against the
progress of a person with autism because they almost
universally have a tendency to become dependent on
verbal prompts rather quickly and even other
prompts. The student with autism thus may require
an adult to remind them to complete the assignment
and also may require the adult to remind them to read
the question for some specific problems. A.S. like
other persons with autism can become dependent on
the adult verbal reminder to complete assignments
that fall within his capacity to complete.
Additionally, the improvement in conversational
ability not only makes persons with autism including
A.S. more attuned to the environment but becomes a
source of motivation to complete assignments
independently. Thus, conversational skills effectively
reduce some level of prompt dependence and also

32

increase independence because they allow the
individual to be more attuned to the environment.
Intensive ABA or IBI programs that are proven to
raise "technically sound" 20 (U.S.C. § 1414 (b)(2)(C);
8 N.Y.C.R.R. § 200.6(6)(ii)(x)) measures of IQ and
VABS have a common element of facilitated one-onone play dates with similar aged typically developing
peers that occurs at a frequency of 3 — 5 times per
week across three or more peers at an average
duration of about 35 minutes, where duration is
dependent on how productive the activity is during
that particular session.
"As part of the generalization of skills and
behaviors to the natural environment, the
peer play component is initiated 3 to 5
sessions per week with a typically developing
peer for 15 to 60 minutes per session"..."
When the child is 90% accurate initiating
with peers across 3 or more peers for 18 to 24
months, additional children are presented at
one time to form a group play setting."
(Cohen, H., Amerine-Dickens, M., & Smith, T17., 2006,
Developmental and Behavioral Pediatrics, 27:5145—
S155); Also see, the approach taken in the seminal
report "The second year of treatment emphasized
teaching expressive and early abstract language and
interactive play with peers." (Lovaas, 0. I., 1987,
17 Tristram Smith completed his PhD under Ivar Lovass. The 3
— 5 play dates per week discussed in this report is a direct
replication of the Semial Lovaas UCLA program.

33

Journal of Consulting and Clinical Psychology, 55:39). Regularly scheduled play dates is used in every
ABA program proven to increase "technically sound"
measures of IQ and VABS "Instruction occurred
during formal, structured sessions as well as less
structured situations, such as supervised play dates
with typically developing peers." (Howard, J. S.,
Sparkman, C. R, et al., 2005, Research in
Developmental Disabilities, 26:359-383.; Also, see
the multiyear outcome: Howard, J. S., Stanislaw, et
al. (2014), Research in Developmental Disabilities.
35:3326-3344.) There is a correlation between the
amount of supervised play dates and the acquisition
of social skills "acquisition of social skills was
positively related to amount and duration of
supervised peer play" (Sallows, G. 0., & Graupner, T.
D., 2005, AJMR, 110:417-438).
If intensive ABA is prescribed by The Supreme Court
of the United States for persons with autism there
exists a reasonable likelihood that it can be construed
to not be required to include one-on-one play dates
with typically developing peers at a duration and
frequency reasonably calculated to increase
"technically sound" measures of IQ and VABS. There
is also a reasonably likelihood that once a participant
transitions more heavily into the general education
class and is participating in the less intensive portion
of their ABA program intervention providers could
overly subject the student to prompts due to a lack of
training. Communicative Deficits and Prompt
Dependence are Defining features of autism and
progress towards improving them should be
measured by "technically sound" instruments based

34

on VABS or similar. These are essential skills
necessary for "further education, employment and
independent living."
The appropriately described evidence-based method
to promote conversational skills between students
with autism and their typically developing peers took
place as part of a play date intervention known as
contextually supported play date interactions by
Koegel and Coworkers, (2005). In this play date
arrangement a facilitator provides contextual support
to increase the socialization of students with autism
and their typically developing peers across several
peers. The contextual support enabled the child with
autism to engage in unprompted synchronous
reciprocal social interactions that "was defined as
both children engaging in social communicative
behaviors related to the other child's current interest.
These social and communicative behaviors consisted
of the children showing verbal initiations, verbal
responses, nonverbal eye contact, facial expressions,
and/or gestures in relation to their engagement in a
joint activity." (Koegel, R. L., Werner, et al., 2005,
Research and Practice for Persons with Severe
Disabilities, 30:93-102.) In this report for persons
with autism there was an increase in the rate of
spontaneous interactions between the two
participants (one with autism and the other without)
and an increase in the quality of those interactions.
The appropriate duration, intensity and time window
for such a program to be "reasonably calculated" to be
effective is a total of 4 paly dates per week, across 3
or more typically developing peers for about 35
minutes per play date for 2 school years where in the

35

last half of the second school year there would ideally
be an increasing number of peers participating in a
play dates as appropriate for the student with autism.
2 and 1/2 hours per week of properly facilitated play
dates for .2 consecutive years—at the earliest age'9—
to make a lifetime of difference. In 40-week school
year that is 200 hours total over 2 school years that
will translate into a lifetime of employment and over
$2 million in savings in government programs for 50%
of participants. That is being the other requirements
of the ABA program are met.
THERE IS AN ARMY OF PROFESSIONALS
THAT ARE SPECIFICALLY TRAINED TO
PROVIDE ABA INTERVENTION AND THEIR
NUMBERS ARE SUFFICIENTLY LARGE SUCH
THAT VIRTUALLY NO PERSON WITH
AUTISM WOULD BE LEFT BEHIND IN
PUBLIC SHCOOLS.
With each passing decade IBI or intensive ABA has
laid a greater foundation both in its literature
precedent and the number of BCBA professionals
practicing ABA such that a single methodology could
apply broadly with sufficient manpower to adequately
serve early every child with autism and give them a
far better shot at "further education, employment and
independent living."

19 "when the child has mastered prerequisite skills: verbal
response to questions, on topic statements, simple play skills,
and turn taking" (Cohen, H., Amerine-Dickens, M., & Smith, T.,
2006, Developmental and Behavioral Pediatrics, 27:S145-S155)

•
36

There are more than 30,000 BCBAs in this country.
Thus, there is an infrastructure of human experts to
implement and provide support for ABA
methodological programs. One BCBA can oversee the
implementation of intervention of 6 — 10 full time
therapists covering the intervention for 6 - 30 persons
with autism, depending on need, and at an incidence
of autism at 1 in 5420 births based on 2020 CDC data
http s ://www. cdc. goy/rich d dd/autis m/data. html
suggesting that there are about 700,000 children with
autism in the United States between the ages of 3 and
12. This group thus requires about 25,000 — 35,000
BCBAs based on the assumption that 45% of them
will only require 3 - 4 years of ABA and 12% will be
deemed to not benefit after 2 years. While these
ratios may appear unequitable on the surface they
will result in a net savings for school districts over the
entire public education period for students with
autism. Further, the nation spends $250 - $300
Billion a year on autism services with the bulk of that
amount spent in adulthood. Early intervention is the
key to recovering individuals and • eliminating the
bulk of autism related costs for the remaining 70 — 80
years of the individual's lifetime. Effective special
education laws that make ABA a matter of right for
persons with autism will save schools substantial

https://www . autism-society. org/release s/cdc-release s-newprevalence -rates -of-people -with- autism- spectrum- disorder/
While the CDC data shows the prevalence of autism increasing
with each surveillance year this is due to a combination of
improved diagnostics, better recognition and a change in the
method to identify persons with autism all of which results in an
increased rate of identification. Additionally, there may be a real
increase in prevalence.
20

37

funds and save this nation $100 Billion annually in
the long term.
THE FEDERAL RULES OF APPELLATE
PROCEDURE (FRAP) LEAD PRO SE
PARENTS OF A.S. OR OTHER PRO SE
REPRESENTATIVE TO BELIEVE THAT
REOPENING THE TIME TO FILE AN APPEAL
FRAP RULE 4(a)(6) IS EXTENDED BY THREE
DAYS PER FRAP RULE 26(c) IF THAT
ORDERED GRANTING THE MOTION IS SENT
VIA USPS MAIL
Taken together FRAP Rule 26(c) and Rule 4(a)(6)
(Appendix at 321) lead a pro se representative to
believe that reopening the time to file an appeal is
extended by 3 days when the order granting
reopening the time to file an appeal is sent via USPS
mail which it was to E.S. It may be conceivable that
an attorney learns in law school that FRAP Rule 26(c)
cannot be applied to FRAP Rule 4(a)(6). However, it
was impossible for non-attorney pro se parents E.S.
and R.S. to know this. Further, there is nothing in
FRAP that supports that reopening the time to file an
appeal is not extended by 3 days when that order
granting the motion is sent via USPS mail. There are
no supplementary rules referenced in FRAP that
would lead pro se parents to believe that FRAP Rule
26(c) does not apply to FRAP Rule 4(a)(6).
Petitioners mailed the appeal to the U.S. District
Court on 4/2/20 with the enclosed payment as parents
drove there at about 3:00pm on 4/2/20 learning for
the first time that the court closed early at 2:00pm
daily due to the COVID-19 pandemic.

38

CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully Submitted on November 2, 2020

E.S. Pro Se on behalf of A.S.

